    VOLPE CENTER’S INFORMATION
TECHNOLOGY SECURITY AND RESOURCE
      MANAGEMENT ACTIVITIES
  Research and Innovative Technology Administration

             Report Number: FI-2007-061
             Date Issued: August 1, 2007
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Volpe Center’s Information                                   Date:    August 1, 2007
           Technology Security and Resource Management
           Activities, RITA
           Report Number FI-2007-061
  From:    Rebecca C. Leng                                                             Reply to
                                                                                       Attn. of:   JA-20
           Assistant Inspector General for Financial
            and Information Technology Audits

    To:    Acting Research and Innovative Technology Administrator

           This report presents the results of our audit on the effectiveness of information
           technology (IT) security and resource management activities at the John A. Volpe
           National Transportation Systems Center in Cambridge, Massachusetts.

           A fee-for-service organization within the Department of Transportation’s (DOT)
           Research and Innovative Technology Administration (RITA), the Volpe Center
           conducts research on critical transportation initiatives, such as aviation safety and
           Global Positioning System tracking for vessels and hazardous materials. In
           addition, Volpe provides operational support for vital DOT business operations,
           such as hosting the Federal Aviation Administration’s (FAA) Enhanced Traffic
           Management System, DOT websites, and the implementation of the security
           access system for DOT’s new Headquarters.

           To support its user-fee operations, Volpe has established a complex network
           infrastructure. 1 Protected by security firewalls, this infrastructure provides
           interconnected networks and remote connections via the Internet for its
           550 Federal employees and 850 contractor staff. Volpe personnel use these
           network computers to conduct sensitive research and develop new systems for
           customers. The network infrastructure also supports Volpe’s administrative
           systems, such as e-mail and procurement management.



           1
               A network infrastructure consists of a set of hardware and software used to interconnect computers and users,
               regardless of their physical locations.
                                                                                                    2


Our objectives were to determine whether (1) Volpe’s network infrastructure and
connection entry points are adequately secured to protect the Center’s critical
information assets, (2) Volpe’s information systems are properly accredited
(secured) to support business operations, and (3) Volpe is leveraging departmental
IT resources to maximize cost savings. We performed this audit in accordance
with Generally Accepted Government Auditing Standards as prescribed by the
Comptroller General of the United States and conducted such tests as we
considered appropriate to detect fraud. Details of our scope and methodology are
presented in Exhibit A.


RESULTS IN BRIEF
Volpe has established adequate firewall security to protect its IT infrastructure
from intrusion or unauthorized access from the Internet. However, Volpe
computers remained vulnerable to attacks by insiders—employees, contractor
staff, and remote users from DOT’s interconnected networks. 2 We found that
Volpe’s network vulnerability assessment was not effective in identifying security
vulnerabilities and that network computers were not configured in accordance with
departmental security standards to prevent weaknesses.

In addition, Volpe’s system security certification review did not meet a key
requirement. As part of this review, management must develop and test the
system contingency plan to ensure continued operation in case of disaster. While
Volpe reported that its systems have undergone such testing, the testing was
limited to tabletop exercises—procedural walkthroughs. Volpe management has
not yet tested its capability to resume system operations at its designated recovery
site. In case of disruption due to power loss or disaster, both Volpe and customer
systems might be affected.

Finally, Volpe has made good progress in leveraging departmental resources for
more efficient operations. For example, it has converted its stand-alone financial
and personnel/payroll systems to DOT’s consolidated system solutions and is
using the departmental enterprise licensing agreement to procure Oracle products
for cost savings. We, however, identified two additional opportunities warranting
management attention. First, Volpe was not included in the Department’s
enterprise license agreement and had to negotiate its own licensing agreement with
Microsoft. In addition, Volpe, along with several other DOT Operating
Administrations are paying separate license fees for using a software company’s
procurement system. Consolidating these operations with the Department could
enable Volpe to further reduce costs.


2
    In March 2007, Volpe added firewall security between the DOT Headquarters and Volpe networks.
                                                                                3


We provided a draft of this report to RITA for comment on May 15, 2007, and on
July 18 we received the Agency’s response. RITA concurred with our conclusions
and stated that the majority of the recommendations have already been either fully
or partially addressed. The response further stated that comprehensive plans are
being developed for the completion of all remaining issues. A complete set of our
recommendations can be found starting on page 9 of this report. RITA’s response
can be found in its entirety in the appendix.


FINDINGS

Volpe’s Network Infrastructure Was Not Properly Secured and
Remained Vulnerable to Attack by Insiders
While Volpe had adequate security protection to prevent unauthorized access from
the Internet, its network remained vulnerable to attack by insiders, including
employees, contractors, and remote users from DOT’s interconnected networks.
The Volpe network infrastructure consisted of its data center (which housed
critical information systems); devices controlling the network connection to
DOT’s Headquarters, FAA, and the Internet; and computers used to conduct
research or develop customer systems (see figure 1).

           Figure 1. Current Volpe Network Infrastructure




     Source: OIG based on Volpe data
                                                                                                                  4


Volpe’s Network Vulnerability Assessment Was Not Effective in Identifying
Security Weaknesses
Volpe management relies on a contractor to scan its network, including web
servers, to identify vulnerabilities for correction. These vulnerability assessments
were infrequent—only on a quarterly basis—and too limited in scope.
Conversely, DOT performs vulnerability scans on its major systems, such as DOT
websites and internal networks, on a weekly basis. Scanning for network
vulnerabilities on a quarterly basis is not frequent enough to identify potential
weaknesses, considering that new vulnerabilities are discovered virtually on a
daily basis. According to the National Institute of Standards and Technology
(NIST), during January 2007 alone, more than 300 new vulnerabilities were found
on various commercial software products.

The assessment performed by the contractor was also too limited in scope to
provide security assurance. The contractor’s assessment in May 2006 identified
47 high-risk vulnerability incidents on about 90 computers. We performed
independent assessments in May and November 2006, and discovered more than
8,800 potential vulnerability incidents—over half high-risk—on 412 affected
computers and network printers (see table 1). 3


           Table 1. Volpe Center Network Vulnerability Incident
                           Assessment Results
      Equipment         Total        Number of              Potential Vulnerability             Total
                       Number        Hosts With                   Incidents                   Potential
                          of        Vulnerabilities                                          Vulnerability
                        Hosts                             High       Medium         Low       Incidents
                       Tested
      Computers         1170                397           2598          509       3802            6909
      Network
      printers            88                 15           1848           33         73            1954
       Total            1258                412           4446          542       3875            8863
     Source: OIG

As acknowledged by Volpe management, one computer could contain multiple
incidents of the same vulnerability. For example, using weak passwords to
authenticate users is a vulnerability because they could be easily cracked or
guessed. If five users were found to use weak passwords to gain access to one
computer, five vulnerability incidents would be included in table 1. We are



3
    High-risk vulnerabilities may provide an attacker with immediate access into a computer system, such as allowing
    execution of remote commands. Medium-risk and low-risk vulnerabilities may provide attackers with useful
    information, such as password files, that they can then use to compromise a computer system.
                                                                                                                      5


reporting the total number of vulnerability incidents because multiple incidents
require multiple corrections. 4

By using the vulnerabilities identified on 15 database systems deployed for project
development, we were able to take full control of 7 systems, including those used
to develop the Advanced Retrieval (Tire, Equipment, Motor Vehicles) Information
System (ARTEMIS). 5 We could have corrupted the data stored in these systems
or launched denial-of-service attacks to disrupt the development work.


Network Computers and Databases Did Not Meet DOT Security
Configuration Standards and Were Not Adequately Reviewed
DOT policy 6 requires all computers to be configured in compliance with
departmental minimum security standards. Yet according to Volpe officials, such
standards were not previously enforced and are now being implemented only on
newly deployed computers. Existing systems’ configurations were not checked by
Volpe to ensure compliance. In fact, the vulnerabilities we identified were largely
caused by improper configuration.

Also, the security certification and accreditation (C&A) review performed in 2004
on Volpe’s network infrastructure, known as the General Support System/Local
Area Network (GSS/LAN), was too limited. It did not cover all key components
used to support Volpe’s missions.

For example, the risk assessment was conducted at the data center and did not
cover other key areas of Volpe’s LAN, such as the network connection to the
Internet and computers that were used to support and maintain its networks.
Without performing a full assessment of its entire network infrastructure—the
most complex and vital system—Volpe cannot be assured that it is providing an
adequate level of security protection to its business operations.


Network Security Weaknesses Could Adversely Affect Volpe’s Business
Operations
It is important that appropriate security controls be in place to protect the Volpe
Center’s critical IT infrastructure and information assets, which are used to
support Volpe’s user-fee operations. In 2006, Volpe had 424 projects underway,
with annual obligations totaling about $262 million. More than 60 percent of the

4
    According to Volpe, there were a total of 1,838 potential vulnerabilities—359 high, 534 medium, and 945 low—for
    the 8,863 incidents identified during the audit.
5
    This system is used by the National Highway Traffic Safety Administration to collect and categorize product data, as
    well as death and injury data submitted by manufacturers, to identify potential tire defects in order to prevent any
    additional vehicle-related injuries and deaths.
6
    DOT IT and Information Assurance Policy 2006-04, April 3, 2006.
                                                                                   6


projects were for DOT customers. The rest were for other Federal agencies, state
and local governments, the private sector, and international entities (see table 2).


               Table 2. Volpe Customer Projects in 2006

             Customers            Number of        Total New Obligation
                                    Active        Authority Transferred to
                                   Projects        Volpe ($ in millions)
       DOT
         FAA                           74                    $81.9
         Others                       196                    $88.7
       Non-DOT
         Other Federal
        Agencies                      126                    $88.4
         State/local
        Government                     16                     $2.0
         Private sector                 8                     $0.3
         International                  4                     $0.6
         Total                        424                   $261.9
      Source: Volpe

Any potential security weaknesses could jeopardize the confidentiality, integrity,
and availability of Volpe’s services to its customers. Further, its interconnectivity
with DOT networks means that security weaknesses on Volpe’s network could
compromise DOT computer systems or vice versa, which, in turn, could
potentially limit the Department’s ability to conduct its vital business to support
our national transportation system.

According to Volpe and RITA management, security weaknesses in network
assessment and computer configuration were caused primarily by significant staff
turnover at the Volpe Center. During the last 2 years, Volpe had to fill its chief
information officer (CIO) position four times, which led to restructuring of duties
within the CIO’s office on several occasions. This high rate of turnover required
its key personnel to assume multiple roles and responsibilities that were loosely
defined, resulting in inadequate procedures for network vulnerability assessment
and lax oversight of contractor work to provide adequate network security.

Volpe is in the process of recertifying the security protection of the GSS/LAN and
must ensure that the review covers all network components at the Volpe Center.
In response to our identified vulnerabilities, Volpe acted immediately to correct
the confirmed high-risk vulnerabilities and review the remaining ones. According
to Volpe officials, over 75 percent of high-risk vulnerabilities were corrected. In
addition, Volpe management has hired a new contractor to perform ongoing
                                                                                   7


assessments of its network vulnerabilities and recently drafted new operating
procedures to direct the contractor’s network vulnerability assessment work.


Security Evaluation for an Operational System Was Not Completed,
and Contingency Plans To Recover Critical System Operations Were
Not Tested
The Department requires Operating Administrations to report systems used to
support agency missions in the official systems inventory and conduct systems
security C&A reviews of these systems before they become operational. After
that, system security needs to be re-certified every 3 years or upon major changes
to the system. Security certification reviews provide senior management with the
assurance that the information systems they rely on are meeting the minimum
Government security standards to ensure the integrity, confidentiality, and
availability of business operations.


Security Evaluation Not Complete
Volpe depends on five information systems to support its missions. We found that
it omitted two systems from the official systems inventory and did not complete
the required security certification review on one of the systems it did identify,
called the Facility Physical Security System (see table 3).

                    Table 3. Volpe Systems Inventory
               System                      Included in      Received Security
                                      Systems inventory?   Certification Review?
     General Support System/LAN                Yes                   Yes
     Administrative Support                    Yes                   Yes
     Procurement                               Yes                   Yes
     Data Warehouse                            No                    Yes
     Facility Physical Security                No                    No
    Source: OIG based on DOT and Volpe data

Volpe relies on the Facility Physical Security System to control access to various
parts of the building, including areas housing sensitive research work. The system
has been in operation for 3 years. According to Volpe management, it initiated the
security C&A review of this system in January 2006; however, it has not yet
completed the review. Once this system’s C&A review is complete, the system
will be able to be relied upon to control physical access to the Volpe facility.
                                                                                 8


System Contingency Plan Not Tested
As part of the security C&A review, management must develop and test the
system contingency plan to ensure continued operation in case of disaster. While
Volpe reported that its systems have undergone such testing, we found that the
testing was limited to tabletop exercises—procedural walkthroughs. Volpe
management has not yet tested the capability to resume system operations at its
designated recovery site.

In addition to the five systems used to support its mission, Volpe houses customer
systems for other DOT Operating Administrations and one non-DOT entity. The
customer service agreement between Volpe and these customers specifies whether
Volpe or the customer is responsible for disaster recovery. At least one DOT
customer has asked Volpe to be responsible for developing and testing the
contingency plan for the customer’s system.

Should the Volpe data center become nonfunctional due to loss of power or a
disaster, both Volpe and the customer’s business operations would be disrupted.
To mitigate this risk, Volpe signed an agreement with a commercial vendor to use
the vendor’s facility as the systems recovery site. However, 3 years after signing
the agreement, Volpe has never conducted on-site testing to ensure that systems
could indeed be recovered at the vendor’s site in a timely manner.

In May 2006, Volpe conducted limited testing of the network connectivity
between the systems recovery site and the alternate work site, where key Volpe
personnel would be relocated in case of disaster. However, the network capacity
established during the test only supported two customer systems and did not cover
all Volpe systems at the recovery site in case of disaster. Accordingly, all Volpe
and customer systems and associated business operations remain at risk. After we
brought this concern to Volpe management’s attention, we were informed that
Volpe plans to conduct full recovery testing in August of this year.

As stated above, Volpe has experienced a significant gap in its IT leadership and
high turnover rates among key staff in recent years. As a result, contingency plan
testing was overlooked and there has been a lack of progress in reviewing, testing,
and certifying that the Facility Physical Security System is adequately secured to
support Volpe operations.


Volpe Is Using Departmental IT Resources for Cost Savings, but More
Can Be Done
The Presidential Electronic-Government (e-Gov) initiative aims to facilitate the
cost-effective acquisition of all goods and services and requires Federal agencies
to consolidate common and general support services. In recent years, Volpe has
                                                                                                                9


made good progress in consolidating its common IT operations by leveraging
departmental resources. For example, it has converted its stand-alone financial
and personnel/payroll systems to DOT’s consolidated system solutions. In
addition, Volpe has utilized the departmental enterprise licensing agreement to
procure Oracle software for cost savings. However, we found two areas that
warrant management attention.

First, the Department has negotiated an enterprise licensing agreement that would
provide savings on the acquisition of Microsoft products. However, Volpe
management was not aware of the departmental license with Microsoft.
According to Volpe management, this was largely due to Volpe’s frequent staff
turnover. Between November 2004 and November 2005, Volpe negotiated its
own agreements to acquire 1,810 licenses of Microsoft products and later
acquiring an additional 700 licenses in 2007 for a total cost of $224,000. Due to
different contract terms in the departmental and Volpe licensing agreements, we
were unable to assess the potential cost savings had Volpe utilized the
departmental licensing agreement to procure the 2,510 licenses for Microsoft
products. However, the departmental agreement was structured to save money on
large quantities of software purchases. Therefore, Volpe should work with the
Department and in the future utilize DOT licensing agreements.

Second, Volpe is using a commercial procurement system marketed by
CompuSearch, called PRISM, with an annual license fee. Meanwhile, several
other DOT Operating Administrations also use this commercial procurement
system and are paying CompuSearch separate license fees. In FY 2005, the
Department identified potential cost savings by consolidating Operating
Administrations’ use of this commercial system. 7 However, according to
Department officials, this consolidation effort has been suspended due to a lack of
funding. We plan to follow up on this issue with departmental management;
therefore, we are not making any recommendations on this issue at this time.


RECOMMENDATIONS
We recommend that the Acting RITA Administrator direct the Volpe Director to:

1. Strengthen Volpe network security by:

      a. Assigning a high priority to correcting remaining high-risk vulnerabilities
         identified on Volpe computers during our audit and establishing a timetable
         to remediate all other vulnerabilities.


7
    OIG report “Office of the Chief Information Officer’s Budget,” Report Number FI-2005-055, March 31, 2005.
                                                                                  10


   b. Finalizing the procedures for network vulnerability scanning and
      remediation and ensuring that they are properly implemented by the
      contractors.

   c. Fully implementing the Department’s security configuration standards for
      commercial software products operating on all Volpe computers.

   d. Ensuring that all critical network infrastructure components are included in
      the current security certification review of the General Support
      System/Local Area Network.

2. Enhance protection of systems in operation by:

   a. Completing the security certification and accreditation review of the
      Facility Physical Security System and ensuring that all systems are included
      in the Department’s official systems inventory for tracking and
      management review.

   b. Conducting systems recovery testing at the back-up site for Volpe and for
      customer systems for which it is responsible.

   c. Testing network connectivity between the system recovery site and the
      alternate work site to ensure that network capacity can fully support Volpe
      business operations.

3. Achieve cost savings by working with the Department’s Chief Information
   Officer to ensure that Volpe is given an opportunity to participate in and utilize
   future Department-wide enterprise software licensing agreements.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
A draft of this report was provided to RITA for comment on May 15, 2007, and on
July 18 we received the Agency’s response, which can be found in its entirety in
the appendix. RITA concurred with our conclusions and stated that the majority
of the recommendations have already been either fully or partially addressed. The
response further stated that comprehensive plans are being developed for the
completion of all remaining issues.

The corrective actions that RITA and the Volpe management have taken, and plan
to take, adequately address the intent of our recommendations. Management
responses to our recommendations are summarized below:
                                                                                11


Recommendation 1.a: RITA concurred. All identified vulnerabilities that were
related to software updates or patching were remediated. The remaining
vulnerabilities requiring system reconfigurations will be corrected by June 2008,
and those requiring system replacements will be completed by September 2009.

Recommendation 1.b: RITA concurred. The vulnerability scanning and
remediation process has been updated in compliance with DOT standards. The
new process assigns responsibility of monitoring and remediation to individual
systems owners: both Volpe Center institutional assets and projects. Currently,
Volpe is using the Foundstone Enterprise scan tool to track remediation efforts and
provide oversight to ensure compliance.

Recommendation 1.c: RITA concurred. The Volpe Center is now deploying all
new file servers, workstations, and laptops in accordance with DOT security
configuration standards. The task of upgrading the existing file servers,
workstations, and laptops to DOT’s 2007 security standards will be completed by
September 2008. Remaining issues that can only be corrected with system
replacement will be corrected by September 2009.

Recommendation 1.d: RITA concurred. The current Volpe LAN/GSS C&A
review package will include all critical network infrastructure components. The
review will be completed by October 30, 2007.

Recommendation 2.a: RITA concurred. The C&A review of Facility Physical
Security System will be completed by October 30, 2007. Volpe will also include
all systems in DOT’s system inventory by July 31, 2007.

Recommendation 2.b: RITA concurred. Off-site COOP and disaster recovery
exercise will be completed by October 30, 2007.

Recommendation 2.c: RITA concurred. Network connectivity testing of Volpe
institutional systems will be conducted as part of the COOP exercise to be
completed by October 30, 2007.

Recommendation 3: RITA concurred. The Volpe Center and the Office of the
Secretary have agreed that the Volpe Center will be included in all future DOT
Microsoft enterprise license agreements.


ACTIONS REQUIRED
RITA’s actions taken and planned satisfy the intent of our recommendations,
subject to follow-up provisions in DOT Order 8000.1C. We appreciate the
courtesies and cooperation of the Research and Innovative Technology
                                                                               12


Administration, especially Volpe Center representatives, during this audit. If you
have any questions concerning this report, please contact me at (202) 366-1496 or
Edward Densmore, Program Director, at (202) 366-4350.

                                        #

cc: Director, Volpe Center
    Chief Information Officer, DOT
    Chief Information Officer, RITA
    Martin Gertel, M-1
    Dilcy Garro, RTV-1
                                                                                13




EXHIBIT A. SCOPE AND METHODOLOGY
The audit field work was performed between May 2006 and March 2007 at the
Volpe Center in Cambridge, Massachusetts, and RITA Headquarters in
Washington, D.C. The audit was conducted in accordance with Generally
Accepted Government Auditing Standards prescribed by the Comptroller General
of the United States and included such tests as we considered necessary to provide
reasonable assurance of detecting fraud, abuse or illegal acts.

We examined the underlying network infrastructure supporting Volpe missions,
including Internet entry points, remote access connections, and the private
network. In addition, we reviewed Volpe firewall configuration files and security
policies and procedures. Using commercial network scanning tools and other
commonly available software utilities, we performed two network scans that
covered Volpe’s internal network and critical network devices such as firewalls
and routers. We also performed limited internal penetration testing to validate the
identified vulnerabilities.

We reviewed Volpe’s certification and accreditation documents, continuity of
operations plans, IT systems inventory, and plan of actions and milestones. We
also visited the Center’s back-up and alternate work sites located in
Massachusetts.

Finally, we reviewed Volpe’s IT procurement practices for major hardware and
software applications and DOT’s existing enterprise licensing and blanket
purchase agreements.

We interviewed key officials, including systems owners, network and database
administration officials, and senior management.




Exhibit A. Scope and Methodology
                                                                     14




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                   Title

Edward Densmore                        Program Director

Dr. Ping Z. Sun                        Project Manager

Henry Lee                              Senior Computer Scientist

Aaron Nguyen                           Computer Scientist

Vasily Gerasimov                       Information Technology Specialist

Atul Darooka                           Information Technology Specialist

Michael P. Fruitman                    Communications Adviser

Harriet Lambert                        Writer-Editor




Exhibit B. Major Contributors to This Report
                                                                                           15




APPENDIX. MANAGEMENT COMMENTS


                                                 The Administrator         1200 New Jersey Avenue, S.E.
U.S. Department                                                            Washington, D.C. 20590
of Transportation
Research and
Innovative Technology
Administration



July 18, 2007

INFORMATION MEMORANDUM TO THE INSPECTOR GENERAL

From:                   John A. Bobo, Jr., Acting Administrator
                        (202) 366-7582

Thru:                   Curtis J. Tompkins, Director, Volpe Center
                        (617) 494-2222

Prepared by:            C. Eric Frykenberg, Chief Information Officer, Volpe Center
                        (617) 494-4810

Re:                     Volpe Center Response to Draft OIG Audit of Volpe Center’s Information
                        Technology Security and Resource Management Activities


SUMMARY

This memorandum is provided in response to the Office of Inspector General’s (OIG) request for
the Research and Innovative Technology Administration/Volpe National Transportation Systems
Center (RITA/Volpe Center) management comments and statement of actions to be taken on the
OIG’s “Draft Report on Audit of Volpe Center’s Information Technology Security and Resource
Management Activities” provided on July 16, 2007.

Many work hours were expended by the Volpe Center staff and OIG audit team during the May
2006 to November 2006 time-frame of the audit. RITA/Volpe Center considers the OIG audit to
have been an overall positive and beneficial process and appreciates the contributions of all
personnel involved.

Remediation of all issues raised is a top priority for RITA and the Volpe Center. The majority of
report recommendations have already been either fully or partially remediated and
comprehensive plans are being developed for the completion of all remaining issues.



Appendix. Management Comments
                                                                                      16


RITA provides the following status update on the OIG recommendations.

1.    Strengthen Volpe Center Network Security by:

      a. Assigning a high priority to correcting remaining high risk vulnerabilities
      identified on Volpe Center computers during our audit and establishing a timetable
      to remediate all other vulnerabilities.

      Volpe Center response: Concur
      Status: The Volpe Center has remediated all software updates and/or security patching
      vulnerabilities identified in the IG scan. All vulnerabilities requiring system
      reconfigurations will be corrected by June 2008, and all vulnerabilities requiring system
      replacement will be completed by September 2009.

      b. Finalizing the procedures for network vulnerability scanning and remediation,
      and ensuring that they are properly implemented by the contractors.

      Volpe Center response: Concur
      Status: The vulnerability scanning and remediation process has been updated since the
      IG inspection and is now compliant with DOT standards. The Volpe Center now has a
      more comprehensive process in place that assigns responsibility for monitoring and
      remediation to individual system owners. This includes both the Volpe Center
      institutional assets and projects. The Foundstone Enterprise scan tool now allows the
      Volpe Center to track remediation efforts and provide oversight to ensure compliance.

      c. Fully implementing the Department’s security configuration standards for
      commercial software products operating on all Volpe Center computers.

      Volpe Center response: Concur
      Status: The Volpe Center is now deploying all new file servers, workstations, and laptops
      in accordance with DOT security configuration standards. The task of upgrading the
      existing installed base of all file servers, workstations, and laptops to DOT’s 2007
      security standards is an extensive project. All system reconfigurations will be completed
      by September 2008. Remaining issues that can only be corrected with system
      replacement will be corrected by September 2009.

      d. Ensuring that all critical network infrastructure components are included in the
      current security certification review of the General Support System/Local Area
      Network.

      Volpe Center response: Concur
      Status: The current LAN/GSS Certification and Accreditation package will include a
      comprehensive assessment of all critical network infrastructure components.
      Expected completion date is October 30, 2007.




Appendix. Management Comments
                                                                                    17


2.   Enhance protection of systems in operation by:

     a. Completing the security certification and accreditation review of the Facility
     Physical Security System and ensuring that all systems are included in the
     Department’s official systems inventory for tracking and management review.

     Volpe Center response: Concur
     Status: Certification and accreditation of Facility Physical Security System (termed
     Security Access System (SAS) will be completed by October 30, 2007.

     b. Conducting systems recovery testing at the backup site for Volpe Center and for
     customer systems for which it is responsible.

     Volpe Center response: Concur
     Status: Off-site Continuity of Operations Plan (COOP) and Disaster Recovery (DR)
     exercise to be completed by October 30, 2007.

     c. Testing network connectivity between the system recovery site and the alternate
     work site.

     Volpe Center response: Concur
     Status: On May 17, 2006, the Volpe FMCSA project successfully conducted a
     DataComm test of remote connectivity between the SunGuard cold site and the SunGuard
     hot site. Network connectivity testing of Volpe institutional systems will be conducted as
     part of the COOP exercise to be completed by October 30, 2007.

3.   Achieve cost savings by working with the Department’s Chief Information Officer
     to ensure that the Volpe Center is given an opportunity to participate in and utilize
     future Department wide enterprise software licensing agreements.

     Volpe Center response: Concur
     Status: The Volpe Center fully supports utilization of DOT enterprise software licensing
     agreements. The Volpe Center and OST have agreed that the Volpe Center will be
     included in all future DOT Microsoft enterprise license agreements. The Volpe Center
     is already included in all other DOT enterprise license and blanket purchase agreements
     such as Oracle, Safeboot, eTrust, and Dell.




Appendix. Management Comments
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
Volpe Center’s Information Technology Security and Resource Management
                               Activities

                         Section 508 Compliance Presentation


Figure 1. Current Volpe Network Infrastructure

The diagram shows the network infrastructure:
   • A firewall connecting Volpe LAN, Web Servers and Internet.
   • A firewall connecting Volpe LAN, Customer Project networks and DOT
      headquarters.
   • A firewall connecting Volpe LAN and FAA WAN.
   • FAA WAN is connected to ETMS network.
   • Volpe LAN, Customer Projects, Web Servers and ETMS are within the
      border of the John A. Volpe National Transportation Systems Center
      Campus.

Source: OIG based on Volpe Data

Table 1. Volpe Center Network Vulnerability Incident Assessment Results

    • 397 of 1170 computers were found having vulnerabilities. A total of 6909
      potential vulnerability incidents were identified: 2598 high, 509 medium,
      and 3802 low.
    • 15 of 88 network printers were found having vulnerabilities. A total of
      1954 potential vulnerability incidents were identified: 1848 high, 33
      medium, and 73 low.
    • Total 412 of 1258 hosts (computers and network printers) were found
      having vulnerabilities. A total of 8863 potential vulnerability incidents were
      identified: 4446 high, 542 medium, 3875 low.

Source: OIG

Table 2. Volpe Customer Projects in 2006

    • DOT customer FAA has 74 active projects with a total of $81.9 million
      new obligation authority transferred to Volpe.
    • DOT other customers have 196 active projects with a total of $88.7 million
      new obligation authority transferred to Volpe.
    • Non-DOT other federal agencies have 126 active projects with a total of
      $88.4 million new obligation authority transferred to Volpe.
   • Non-DOT state/local government clients have 16 active projects with a
     total of $2 million new obligation authority transferred to Volpe.
   • Non-DOT private sector clients have 8 active projects with a total of $0.3
     million new obligation authority transferred to Volpe.
   • Non-DOT international clients have 4 active projects with a total of $0.6
     million new obligation authority transferred to Volpe.
   • Total number of active projects for all customers is 424 with a total new
     obligation authority transferred to Volpe is $261.9 million.

Source: Volpe

Table 3. Volpe Systems Inventory

   • General Support System/LAN was included in the systems inventory and
     received security certification review.
   • Administrative Support system was included in the systems inventory and
     received security certification review.
   • Procurement system was included in the systems inventory and received
     security certification review.
   • Data Warehouse system was not included in the systems inventory but
     received security certification review.
   • Facility Physical Security system was not included in the systems inventory
     and did not receive security certification review.

Source: OIG based on DOT and Volpe data
